COCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 CAL ega | Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19- a
CITY OF FLINT, et al.,
Petitioners,
v.
SHARI GUERTIN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(6), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6349 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of August, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cormeinc hex C Clit. Quid h, Ghly

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38518
